WAIVER

Supreme Court of the United States
No. 21-48

i Y is Next
h Valley Juvenile Center John Doe 4, By and Through His
ee cearatnee Friend, Nelson Lopez, et al.
(Petitioner) (Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is

requested by the Court.

ve

Please check the appropriate box:
x Iam filing this waiver on behalf of all respondents.
a Ionly represent some respondents. J am filing this waiver on behalf of the following

respondent(s):

 

Please check the appropriate box:
Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
OC Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

 

Signature.

Date: 8/4

(Type or print) Name

Kelsi Corkran
O Mr. ARMs. O Mrs. Miss

rim (NStitUte PO Cepstitutioal Advo cacy + Protect Nn

Address WOO New
City & State Washington, dT rip2OOO|

Phone 202-Tiv- 71/02 Email Kbc74 © georgetown. ed
A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF
TH
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED. 8

Jason Bstkins Harold Dohnson
Josnua Everarel Meredith Haynes

 

 

 

 
